HHS/OIG-Audit--"Review of Pension Costs Claimed by Medicare Reimbursement by Community Mutual Insurance Company, (A-07-97-01208)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed by Medicare Reimbursement by Community
Mutual Insurance Company," (A-07-97-01208)
July 1, 1997
Complete Text of Report is available in PDF format
(1.04 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Pension Costs Claimed
for Medicare Reimbursement by Community Mutual Insurance Company for Fiscal
Years 1988 through 1995. During this period, the allowable Medicare pension
costs were $2,043,579. However community Mutual Insurance Company (Community
Mutual) claimed pension costs of $3,035,551 for Medicare reimbursement. As a
result, Community Mutual claimed $991,972 in pension costs that were not allowable.
The over claim occurred primarily because Community Mutual's pension cost calculations
were based on incorrect asset values for the Medicare segment, and were not
computed in accordance with the Cost Accounting Standards (CAS). Additionally,
Community Mutual used an inappropriate cost component when computing its indirect
Medicare line of business (LOB) percentage, which resulted in an overstatement
of the pension costs assigned to indirect Medicare operations. We recommended
that Community Mutual revise its Final Administrative Cost Proposals to eliminate
the unallowable pension costs, and that Community Mutual base future claims
for pension costs on costs calculated in accordance with the CAS. We also recommended
that Community Mutual revise its methodology of calculating the indirect Medicare
LOB percentage.